               INVENTORY OF STATE INITIATIVES

                 IN ADDRESSING YOUTH SUICIDE


                   National Program Inspection




  .. SOWICts




  ""d1C


OFFICE OF INSPECTOR GENERAL
 OFFICE OF ANALYSIS AND INSPECTIONS



                                                 November 1986

                                           ..   "'"




                                      .I




                   Office of the Inspector General

The mission of the Office of the Inspector General (DIG) is to

promote the efficiency, effectiveness and integri ty of programs

in the United States Department of Health and Human Services

CHHS). It does this by developing methods to detect and prevent
fraud, waste and abuse. Created by statute 
   n 1976, the
Inspector General keeps both the Secretary and the Congress fully

and currently informed about programs or management problems and

recommends corrective action. The DIG performs its mission by

conducting audi ts, investigations and inspections wi

approximately 1, 200 staff strategically located around the
country.

                Office of Analysis and Inspections

This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offices within the DIG. The other
two are the Office of Audit and the Office of Investigations.
OAI conducts inspections which are, typically, short-term s tudi es
designed to determine program effectiveness, efficiency and
vulnerabili ty to fraud or abuse.


                              This Report

Enti tied " Inven tory of State Ini    tiati ves in
                                            Addressing Youth
Suicide, "this inspection was conducted to collect information to
supplement the work of the HES Task Force on Youth Suicide.
The report was prepared by the Regional Inspector General, Off ice
of Analysis and Inspections, Region
project were the following people:
                                                IX.
                                         Participating in this
       aye D. Kidwell, National Project Director , Region IX,
      Seattle, WA

      Kathy Admire, Senior Analyst, Region . IX, Seattle, WA
      Ta Z i tans, Headquarters, Washington , DC
      Alana Landey, Headquarters, Washington , DC

      Lucille Cop, Reg ion II, New York Ci ty, NY

      William Counihan, Region II, New York City, NY

      Phil Onofrio, Region V, Chicago, IL

      Neil Merino, Region IX, San Erancisco, CA

                 INVENTORY OF STATE INITIATIVES

                   IN ADDRESSING YOUTH SUICIDE





RICHARD P. KUSSEROW

INSPECTOR GENERA                                   NOVEMBER 1986




CONTROL tP-09-86-00099

                          TABLE OF CONTENTS


                                                        Page
INTRODUCTION

OVERVIEW OF STATE INVOLVEMENT
    GRAPH: STATE INVOLVEMENT BY TYPE OF AGENCY
STATE-BY-STATE SUMMRIES
TABLE       STATE PROGRA INVOLVEMENT IN YOUTH SUICIDE
TABLE II:   STATE INVOLVEMENT IN YOUTH SUICIDE           2-3".
                                 INTRODUCTION


 In recogni tion of the effect youth suicide has on society as a
 whole, President Reagan , pursuant to Senate Joint Resolution
 proclaimed June 1985 as Youth Suicide Prevention Month. As part 53,
 of the federal government' s response to the call for action on
 this problem, the Department of Health and Human Services 

 cosponsored a National Conference on Youth Suicide during (DHHS)

 and established a high-level HHS Task Force on Youth       June,
                                                       Suicide.

 The Task Force includes senior officials from the National

 Insti tute of Mental Health, National Institute of Drug Abuse,

 National Institute of Alcohol Abuse and Alcoholism, Centers for
 Disease Control, and the Office of Human Development
                                                       Services'
 (OHDS) Administrati9n for Children, Youth and Families.
 The Task Force' s mandate is to " assess and consolidate
information which currently exists and to recommend or initiate
activities which will attack-- head on'          --the youth suicide
dilemma " and to generate research on the factors which place
young people at risk of suicide. It sponsored three national
conferences on (I) Risk Factors, (2) Prevention and Intervention

and (3) Strategies for the Future between May and November 

The Task Force will culminate its work wi 
                 1986.
                                          th a series of reports

and final recommendations which will be presented to the

Secretary in January 1987.

The Off ice of    Inspector General (OIG)
                                       was asked to conduct a
quali tati ve national programinspection of youth suicide which
would supplement the work undertaken by the Task
                                                         Force.
                                                          The

focus of the inspection was to (a) assess the extent to which

HHS- funded programs are involved in efforts to prevent youth

suicide,  (b) review how states and selected communities are

responding to the problems associated wi th youth suicide and

(c) identify barriers and gaps which hinder deli
                                                 very of services
to suicidal youth and/or their       families.
The results of this inspection are reflected in two
enclosed report, enti    tied
                                                              reports. The
                                Inventory of State Ini tiati ves in
Addressing Youth Suicide ,has a very specific focus on state
government efforts to address this       issue.
                                           During April,
telephone interviews were held with state officials of 5 program
areas in each of the 50 states, including:

    education/public instruction
    men tal   heal th

    maternal and child health

    drug and alcohol abuse

    children' s services (foster care, child        abuse and neglect,
    and children s protective services).
These agencies were selected because of their involvement wi
youth, as well as their fiscal relationship wi th our Department
(all but the education agencies receive HHS         funds).
                                                      In some
states, knowledgeable representati ves from governors ' and
lieutenant governors offices, legislatures and planning agencies
were also contacted. A total of 283 officials were interviewed
for the inventory.

A companion report, enti tIed Youth Suicide , reflects study
findings based on 170 in- person interviews in 9 states and 178
telephone interviews of community service agencies selected at
random. The report focuses on a range of youth suicide issues,
including magni tude of the problem, trends, communi ty response,
detection and treatment, and gaps and barriers to serving youth
at risk of suicide.
                  OVERVIEW OF STATE INVOLVEMENT



Forty-seven states reported involvement with youth suicide issues
in at least one of the program agencies contacted. The only
exceptions were Missouri, New Hampshire and South Dakota.
Table I (page 21) sumarizes which agencies are addressing this
issue in each state. It should be stressed that this inventory
of state acti vi ty is current only as of April 1986. At the time
of the survey, many program efforts were evolving, and
undoubtedly there has been considerable acti vi ty subsequent to
our contact with state officials. Some agencies which reported
no current activity anticipated that they would be addressing
youth suicide in the near   future.Some states are focusing
efforts specifica ly on suicide prevention, while others are
addressing the broader spectrum of self-destructive behavior and
including suicide as one component in looking at the problems of
"high-risk" youth. As the following graph indicates, involvement
varies across state agencies.


               STATE INVOLVEMENT BY TYPE OF AGENCY





                  JENT          L TH



                         itCH




                            SEm:

Nearly three fourths of the state education agencies (35 states)
have mounted some type of initiative to address youth suicide.
Efforts range from compiling bibliographies of pertinent

materials on youth suicide to training school personnel and

parents in identifying and intervening with high risk youth

and/or developing specif ic curricula for students. Some are in
the process of testing materials on a pilot basis while others
are encouraging local school districts to develop their own
programs. Manuals and brochures have been developed by a number
of the state agencies.  A few have special teams to work with the
schools in developing suicide prevention programs or addressing
the aftermath of a suicide-related
being implemented in a number of states.
                                          crisis.
                                            Peer programs are


Over half (28 states) of the mental health programs are

addressing youth suicide. In states which have created statewide

or interagency task forces to address this issue, the mental

heal th programs are frequently assuming lead agency

responsibili ty. Some are identifying youth suicide prevention in

state plans or are involved with sponsoring training through

workshops and conferences.
The 21 maternal- and child health programs are involved in a broad
array of acti vi ties impactingon youth suic ide. Many programs
have identified suicide as one of several high priority
adolescent issues: Maternal and child health programs have
sponsored a number of conferences and other training sessions for
service providers as well as youth.   They are also involved in
funding some direct services such as hotlines for youth and
special risk screening in health clinic        settings.
Nearly one-third (IS states) of the drug and alcohol programs
reported some involvement with youth suicide, primarily by
training service providers to identify and intervene wi
suicidal youth. There is strong recognition of the link between
drug and alcohol abuse and suicide.
The tone of the interviews with the childrens ' services programs

(i. e., foster care, child abuse and neglect, and children
protecti ve services) was markedly different from di scussions held
wi th the other four program agencies. Fewer than 20% (9 states)
reported any involvement at all wi       th this issue.
                                                     The childrens
services programs were rarely involved in any interagency
ini tia ti ves, whereas the other four programs surveyed were nearly
always involved in state task forces, commissions and advisory
councils.
Legislation addressing youth suicide has been approved in II
states and a number of bills are ei ther under active
consideration or will be introduced during the next session in
other state legislatures. Governors or Lieutenant Governors have
assumed a leadership role in 10         states.
                                          These are the states
that most frequently have created statewide ini tiati ves such as
interagency task forces or advisory councils. Many of these

states have placed considerable focus on developing programs in

the schools.


Table II (page 23) identifies types of activities currently
underway in the various states, such as legislation the
development of printed materials or creation of a t    r-6rce.
A sumary of   ini tiati   ves in each   state follows.
                        STATE-BY-STATE SUMRIES



Based on interviews with 283 state officials representing
children s services, mental health, drug and alcohol, maternal
and child health, education, and occasionally
                                      sumary
                                               legislative and
                                              of state
gubernatorial offices, following is a
invol vement with youth suicide issues as of April 1986. See
Tables I and II for the tabular sumaries of state ini tiati ves
and specific program involvement.
ALABAM    The State Board of Education is considering a
resolution which would require that suicide prevention be
included in school health and mental health programs.
Specifically, the resolution would (I) emphasize, within the
comprehensive counseling and guidance plan, the improvement of
mental health programs in schools and (2) direct schools to
provide teacher training at all levels on how to recognize and
deal with high risk- youth.
ALASKA    The drug and alcohol program includes a presentation-en
the relationship between suicide and substance abuse at their

annual training conference. Mental health staff recently

completed a study which found, for the period 1978 to 1984, a 38%

increase in legally- determined suicides in addition to those

reported to the National Center for Health Statistics. The
largest number of unreported suicides were among Alaska Natives,

a significant number of whom were youth aged 24 and 
  under.The
educa tion agency recently hired a health education   specialist,
who is currently researching youth suicide issues wi th the

objective of developing training materials and intervention

strategies for teachers.


ARIZONA   Last year, staff from the family and children I
servi es program con- ducted a special study with the health
department to examine possible links between child abuse and
suicide.  The results were inconclusive, because the incidence of
s uic ide was so low.
ARANSAS    The lieutenant governor established the Arkansas Youth
Suicide Prevention Commission, which has published a brochure for
distribution throughout the     state.
                                     Future plans include
producing a film for use in the schools and working wi th the
legislature toward enactment of a youth suicide prevention
program in the schools. As chairman-elect of the National

Conference of Lieutenant Governors, the lieutenant governor has

also established a special task force to study this problem

nationally.  Hearings are planned.

Mental health program staff report that one of their state-

operated community mental health centers has spearheaded an

extensi ve,   county-wide ini tiati ve   led Lifesavers. Under the

general direction of a steering committee, five operating

commi ttees have been established wi th a focus on teachers, school
                                             media. Activities
administrators, survivors, parents caring
                                    and the  

                                           committees, " consisting

have included:   (I) establishing "       nurse, at each junior and

of students and a counselor, parent and 

senior high school to serve as referral resources for troubled

youth, with mental health professionals donating time as

consul tants, (2) training peer counselors on youth suicide,   and

                                                         suicide, as

 (3) co-sponsoring a local television program on youth 

well as televised public service announcements.


CALIFORNIA   In 1981, the legislature convened a hearingcommittee.
                                                           on youth
suicide, which led to the creation of a state advisory       , which

                                                    suicide.
A year of fact finding led to the enactment of legislati

created a three- year pilot program to deter youth  

Envisioned as a collaborative effort among local school

                                                      year.Activity
districts, suicide prevention centers and the state education

agency, the pilot program has entered its second 

to date has focused at two suicide prevention centers,schools.
                                                          which The

                                                                are
developing and testing a curriculum for use by the          segments;
 curriculum consists of classroom lesson plans, awareness
 for parents and school personnel, and a brochure for parents.
                                               By 1987,
 will be tested in selected schools in Spring 1986       the program

                                                     and will
 eventually be adapted for younger children. 

 will expand to additional school districts  with
                                       year of thea pilot
                                                     goal of

                                                          will focus

 statewide implementation. The third 

 on evaluating the effectiveness of the program and preparing a

 comprehensi    report to the legislature.
                                                   year youth suicide
 A second piece of legislation launched a five­

 preventi program, to be coordinated      by the mental health
                                 first year, the department has 

                                                                   let
 department. Currently    in the
 contracts for: (I) a statewide evaluation of the problem of

 youth sulcide, including a statistical analysis, profiles of

 youth at risk and a determination
                         ties and (2)ofdevelopment
                                         needs and existing
                                                    of a filmresources

                                                              that

  in schools and communi               schools. '

 will be shown on television and in 


  The maternal and child health program reports that as part of an

  adolescent family life program, clients
                          including           profiled It
                                          aresuicide.
                                     risk of            forhas also

                                                             life­

 - threatening indicators,
                                         suicide.
  held a workshop for local maternal and child health directors on
  the identification of youth at risk of 


  COLORAO       The mental health program is analyzing data of youth
   invol ved in the mental
                        The
                            health system on both
                            study will  provid
                                                    an inpatient
                                                 a patient        and
                                                            profil

   outpatient basis.                                       for the

   identificatio of risk factors and recommendatio            strategies.
   development of prevention, intervention and treatment
   The maternal and child health program is in the process of
    updating a 1982 study onreport,
                              adolescent   health,
                                     scheduled  forincluding  mental
                                                     release in

    heal th and suicide. A                         of the probl

                                        resolution.
    september 1986, will include a descriptio
         Maternal and child
    pertinent data and strategies   for  

                                th the Suicide prevention Allied
    heal th is also involved wi
             Effort
    Reg ional 
       (SPARE), which conducts workshops, develops local
coali tions, promotes networking and collects materials for

information and referral.


CONNECTICUT   The maternal and child health program reports that
youth are assessed for risk of suicide at school- based health
clinics and young parents' classes.


DELAWARE   The children' s division of mental health has funded
publication of a brochure on youth suicide, which was distributed
to high school students throughout the  state.  The education
agency has sponsored youth suicide workshops for school personnel
and incorporated lesson plans on suicide into its health
education curriculum for grades four through  twelve.  Both the
mental health and education agencies are actively involved in a
council of public and private representatives which advocates for
the prevention of " teenage suicide. The council has helped create
several support groups for survivors and adolescents at risk of

suicide and has lobbied the general assembly to mandate suicide

prevention training for school personnel.
FLORIDA    In 1984, the legislature enacted legislation which--"
required the Department of Health and Rehabilitation Services,
in conjunction with the Departments of Education and Law
Enforcement, to develop a state plan for youth suicide
prevention. The intent of the legislation was to develop
prevention, intervention and treatment strategies with an
emphasis on detection, clarification of the responsibility of
school counselors, cooperation between school and communi
resources, and the timely referral of high-risk youth to
professional help in their communi ties.   To achieve this mandate,
a statewide task force, as well as eleven district task forces,
were established to create local plans and an overall state plan.
The state plan was finalized and sent to the governor and the
legislature in January 1985.    Key elements addressed in the plan
incluQe the need for: (I) improved planning, coordination and
coopera tion among service agencies, (2) increased public
awareness, (3) systematic training of professionals and
nonprofessionals who work with youth, (4) special emphasis on
training school personnel and addressing youth suicide in the
 life management skills" curriculum, (5) expansion of toll-free,
24- hour crisis hotlines into counties lacking this service,
 6) model crisis centers, funded ini tially on a pilot basis , with
a strong evaluation component prior to statewide implementation
and (7) improved data collection. To date, lack of resources has
resulted in minimal implementation of the plan.

GEORGIA   The maternal and child health program has identified
adolescent issues, including suicide, as a priority.
distributes materials on risk factors for troubled youth and
includes a component on youth suicide in its workshops. The
identification of potentially suicidal adolescents in the
classroom will be a major thrust of a conference scheduled in
October for teachers and public health workers.
        HAWAII    The state education agency is conducting a study which
         includes youth at risk of suicide. A number of community
        agencies are involved in gathering data for the
                                                          report,data
        state agencies have been asked to contribute available     and on
                                                                       other
        youth suicide. The preliminary report is scheduled for release

        in August 1986 and will serve as a basis to design programs to
        respond to study findings. In addi tion , the agency is increasing
        an emphasis in school counseling programs to
                                                       (I) identify and
        work wi th high risk youth and their families and
        school climate which will encourage kids to surface(2)problems.
                                                                create a
        The mental health program is just beginning to explore the
        relationship between drug abuse and suicide, and suicide
        prevention has been identified as an objective to be achieved by
        1990.   The agency is encouraging its community mental health
        centers (state-operated) to address youth at risk of suicide.
        Program funds support a private general crisis hotline and a
        crisis support team directly involved in suicide intervention.
       IDAHO     The mental health agency is establishing a statewide
       youth suicide prevention committee, with representation from
       wi thin and outside state government. The state education agency
       recently sponsored a conference which focused on peer support
       groups, and included training specific to suicide

       ILLINOIS     In 1985, the legislature passed legislation which
       would allow schools to include a number of topics in the school
       curricula, including   suicide.  The state education agency will
       develop the resource materials. The legislature is considering a

       bill which would provide for the development and implementation
       of suicide prevention programs through the   schools.  The maternal
       and child health program has (1) sponsored teen conferences   which
       include suicide, (2) funded three demonstration programs which
       feature a case manager for each teenager to assure access t
       and preclude the risk of suicide and (3) funded a toll-free care
       crisis , hotline for kids.
       INDIANA     The division of nursing, of which maternal and child
       heal th is a component, has spearheaded a number of youth suicide
I ,	
       initiati ves:  (1) developing a training manual, wi th input from
       the mental health and education agencies, which has been
       distributed to school corporations, school nurses and communi
       mental health centers, (2) sponsoring a series of conferences for
       school and public health nurses which focused on youth suicide

       awareness, and (3) organizing a youth suicide task force 	
       county.  The issue will be addressed again in a second serieseach
                                                                  in
                                                                       of
       conferences on violence and crisis intervention.
       IOWA. The    maternal and child health program has produced a
       maal on     adolescent health issues. Youth suicide is
       incorporated into the section on counseling. Training on use of
       the manual, including a workshop on youth suicide, will be held
       throughout the state for public heal th nurses, school counselors
       and . other health professionals. Maternal and child health is
       also cataloging efforts to address youth suicide by various
school districts, 4-H groups, etc., and will be making
recommenda tions to schools, communi ty groups and other
appropriate organizations on this   issue.  The state education
agency has helped implement peer programs in 210 high schools.
Peer helpers have received specific training on suicide
awareness. The agency is working with the State Agricultural
Extension Service and 4-H Program on crisis intervention
strategies to address the impact of the farm crisis on youth and
their families. The children s services agency sponsored
workshops for its youth service workers and staff in juvenile
insti tutions on suicide awareness and prevention.
KANSAS     Each sumer, the drug and alcohol program sponsors an
intensive five- day training program for school teams which
consist of an administrator, two teachers, a support person
(e. g., nurse or counselor) and a community person (e.g., parent).
Although the primary focus is on alcohol and drug prevention and
intervention, other problems associated with high risk youth,
including suicide, are also addressed. Ongoing training and
technical assistance continues throughout the school year. The
drug and alcohol program also funds prevention grants and one-Of
these grantees recently held a conference on youth suicide.
KENTUCKY     The state education agency and the mental heal th/
mental retardation agency are implementing a joint youth suicide

prevention program. The primary purpose of the program is to
train public school teachers to identify, assist and
appropriately refer high-risk youth. The training also addresses
what to do in the event of a suicide emergency at school and how
to handle classroom education for students on suicide-related
issues.   Training will be delivered to public school teachers by
a team consisting of one person from the local regional communi
mental health center and one person from the school    system. The
agencies are in the process of conducting regional workshops for
these, training teams (i. e., training the trainers) who will then
make training available to schools in their communi ties. A
manual has been developed for use in conjunction with these
training sessions. The mental health program has also joined
wi th the drug and alcohol program to sponsor a sumer school for
substance abuse and mental health staff. A workshop on youth
suicide is included on the agenda.

LOUISIANA   The state education agency has a cadre of trained
staff who are working with guidance counselors, nurses, teachers,
administrators and parents on suicide awareness. They conduct
workshops at professional meetings and in communi ties, with a

strong emphasis on communi ty-wide participation. When a suicide

or attempted suicide occurs, the team is available to work with a

community, marshalling local resources to address the    crisis.
The agency also has a separate initiative to identify a range of

high-risk youth, including those at risk of suicide.
MAINE   The mental health program published a report in

March 1986 on suicide and self- destructive behavior among

teenagers. The report has been widely disseminated and will

serve as the basis for a statewide task force, which will  prepare

recommendations to the legislature by January 
1987.  The maternal

conduct a conference on youth suicide in June 

                                               1986.
and child health program is helping to fund a private The
                                                       agency to

                                                          state
education agency participates on the Maine Commission of Youth

Suicide, a private agency.


MAYLAND     The legislature recently passed two bills relating to

youth suicide: (I) establishing a gubernatorial task
                                                     force,
                                                   based
which will begin work in July 1986 to develop broad-
strategies to address youth suicide, and (2) charging the mental
health and education agencies to jointly develop model projects
in schools. The Governor' s Office on Children and Youth recently

published a brochure on youth suicide which has been widely

disseminated. The 

                    ffice also published a book in January 1986

on the status of children, which includes a discussion of youth

suicide.
The drug and alcohol program sponsored a two- day workshop for

substance abuse workers, school personnel, police and parents.

                                                       agency a

Special sessions on youth suicide were included. The
is heavily involved with peer leadership training, which includes

training on risk of suicide. The agency stresses the strong link

between substance abuse and suicide, emphasizing that the warning

signs for suicide are essentially the same as for substance

abuse.

Maternal and child health staff fund school-

                                              based health

projects, which emphasi ze comprehensive services, including

addressing risk of suicide. The focus is on youth and their
families. The agency is also funding a conference in Spring    1986
                                                         Maternal
on a broad range of health issues, including suicide.
and child health has received a special demonstration grant from

HHS to , establish a data base on the health needs of youth
offenders and wards of the court. The goal of the grant is to
develop training for intake workers on such issues as identifying
kids at risk of suicide and knowing how to act in these
 si tuations.
 MASSACHUSETTS    In 1985, the governor convened a task force on
 youth suicide, which is chaired by the mental health agency and
 consists of representation both from wi 
  thin and outside state

 government. The final     report of the  task force is scheduled to

 go to the governor in June  1986.    Major  recommendations  include:
 (I) to integrate suicide preventio      programs with other

 adolescent prevention programs (e. g., substance abuse, teen

 pregnancy), (2) to strengthen services to older youth and improve

 the transition toward emancipation and (3) to develop     aggressive

                                                     incl"1in.g: .
 al ternati ves to tradi tional service  approaches,
  (a) establishing peer programs, (b) developing specific intake

 procedures for crisis intervention and maintaining adolescent

  staff specialists at community mental health centers,

  (c) developing procedures for immediate response to suicide

attempts at hospitals and health clinics, maintaining adolescent

specialists on staff and requiring that referrals be made

following emergency treatment, (d) training other staff who work
wi th youth in crisis intervention (e. g., children' s services


suicide.
workers), and (e) recognizing the key role of the schools and
ensuring they are able to detect and respond to youth at risk of


As of April 1986, the legislature had reported out of committee

an omnibus health and education bill which addresses youth

suicide by (a) creating a discrete grant(b)program for planning and
                                             establishing  a
in-service training in the schools and
statewide health and human resource advisory commi  ttee  and local
coordina ting committees, upon which funding for youth suicide

prevention is contingent.


 The alcohol and drug program funds 8 prevention centers (both
                                                           

 school and communi ty based), as well as 51 early intervention

 programs which deal with interrelated self- destructive behaviors.

 Training on prevention skills, including the prevention of

  suicide, is available to teachers. In June, the children'

  services program is sponsoring a training session for staff on-

 youth suicide. Maternal and chil health staff completed a five-

                                                        state.
 year (1980- 84) statistical analysis on suicide in the 
        For
  1985, they are studying the circumstances of all deaths,

  including suicide, to determine which children had been involved

. wi th state service agencies. Maternal and child health also
  funded the Samaritans, a private suicide prevention agency, to
                                                     hotline.
  develop a school intervention program, including a 

MICHIGAN     The mental health program has funded a pilot program
 in one county which features (I) peer counseling at a high
 school, (2) teaching coping, problem solving and survival  skills,
 of which suicide will be a component, in the eighth grade
 curriculum at a middle school, (3) training teachers to recognize
 high risk kids throughout the county and (4) developing a

 proacti ve plan on how to respond to a suicide crisis.   Depending
 on the study results, the approach may be expanded to other
 counties.   The state education agency reports that the governor
 ini tiated a special interagency work group to develop a
 comprehensive school health education curriculum. It is
 anticipated that the eighth grade curriculum will include uni ts
 on problem solving, developing coping skills and dealing wi
th a

 number of problems facing adolescents, including suicide.
                                                   

 MINNESOTA     The state education agency recently sponsored a
  think tank" meeting with the University of Minnesota Agriculture
 Extension Program to develop state strategies regarding youth
 suicide.    The meeting, representing a broad range of education,
 state agency and community interests, was sparked by 4-H Club
 representatives who saw a need to examine the stresses on youth
 brought about by farm failures. As part of the effort, the

 uni versi ty recently completed a series of three surveys which

 focused on stress and depression as precipitators of suicide,
                                                        

with.. he resulting recommendation that schools emphasize coping,
communication and problem solving   skills.suicide.
                                            The agency has also
                                                     Furthermore,
sponsored a statewide conference on youth
the State Board of Education is addressing learners at risk,
including those at risk of suicide, with a plan to build on
existing chemical dependency prevention programs in the schools,
beginning at the elementary level. One of the Board' s stated
goals is to raise the level of understanding among policy makers,
incl uding legislators, through a series of meetings, written
reports and recommendations, of the difficulties of teaching at-
risk learners.   Finally, the education agency will sponsor a
teleconference with schools in the fall of 1986, concerning their

role in prevention and crisis intervention wi th high-risk kids.


The maternal and child health program (a) recently published a

state plan, which identifies suicide as a key problem and (b) has

a SPRANS grant wi th the Uni versi ty of Minnesota to develop a
model national adolescent data base.
MISSISSIPPI   The maternal and child health program sponsored a
World Health Day for adolescents, and youth suicide was one of
five issues addressed. Students were selected from schools .
throughout the state and were expected to share this experience
wi th the other students at their respective   schools.
MISSOURI.    No involvement.
MONTANA   The state education agency has developed a resource
guide of films, articles and other materials available to school

personnel on a range of topics, including youth suicide. The
guide has been distributed to all school districts.

NEBRASKA   The children s services staff is developing a program
on youth suicide to be aired on educational television during

Sumer     1986.
              The film is being developed in response to an
expressed training need by foster parents. A study guide to
accompany the film will be distributed to foster parents and

other interested persons. The state education agency is
beginning to formulate a strategy to address youth suicide.
Existing curricula and manuals on suicide awareness and

prevention programs are being reviewed, and school personnel are
being surveyed to determine the level of interest in a training

package.
NEVADA   The drug and alcohol program recently drafted a protocol
for the identification of high risk youth and steps to take in a

suicidal emergency. They plan to pilot the protocol at a

residential treatment facility and, if effective, adopt the

protocol for use in treatment facilities statewide.
NEW HAMPSHIRE.    No involvement.
NEW JERSEY   In 1985, the legislature enacted a law which would
(I) establish youth suicide prevention pilot programs in three

regions of the state, to include classroom instructional
materials, training of school personnel, parent education
programs, programs for the families of suicide victims and
linkages with community- based programs, (2) create a 10-member
Youth Suicide Prevention Advisory Council and (3) require a full
report to the governor and legislature on the outcome of the
pilot program and the acti vi ties of the Advisory Council. The
legislature intended that the pilot programs be developed by
community mental health centers, in consultation with local
school boards. The pilot programs are in operation in selected

schools in three suburban communi ties and will soon be evaluated

for effectiveness by independent evaluators. Officials hope the
legislature will provide additional funds to adapt the pilot
ma terials for testing in rural and innerci ty settings, which
eventually will result in a model school curriculum for use
throughout the state. The state education agency has developed a

                    raining manual, which has been widely
suicide awareness 


distributed to educators throughout the  state.   Training is
available on a regional basis.
NEW MEXICO    In 1985, the governor established a time-limited
task force to promote coordination among various agencies wi    ; an
interest in youth suicide. A conference was held in 1985 and a
second conference is scheduled for 1986. To date, staff support
for the task force has been from wi thin the immediate off ice of
the governor, but staffing and lead agency responsibili ty will
soon be transferred to the Department of Health and Environment.
Wi th the exception of the children s services program, all the
programs surveyed have been involved in the governor' s ini tiati ve
and are pursuing their own initiatives as  well.   The state
education agency has co-sponsored three statewide workshops on
youth suicide for school personnel and other state and local
public employees who are in contact with youth.

The mental health program has designated a suicide prevention

coordinator, who has been working wi th the New Mexico Chapter of
the National Committee on Youth Suicide Prevention on a series of
regional workshops for adults who work with adolescents, as well
as a special workshop for adolescents. The mental health program
is also working with the Uni versi ty of New Mexico s Department of
pediatrics to address youth suicide at selected teen clinics
throughout the state. The maternal and child . health program is
spearheading an adolescent health promotion task force and has
several thrusts: (I) sponsoring a conference for Fall 1986 on

intervention strategies, (2) through a special maternal and child

heal th federal grant, addressing injury control from self­

destructi ve behavior, including suicide, on Indian reservations,
and (3) working wi th the legislature on pertinent issues.
The drug program is currently developing information on youth

suicide to be incorporated in the substance abuse state plan.
epidemiologist wi thin the health department has recently

completed a special study of youth suicide, based on the review

of mortality records from 1962-  1984. Study findings include:
(I) the highest incidence of suicide was among Native Americans,

(2) the greatest increase in suicide was among Hispanics and

(3) suicide among younger children, aged 5 to 14, increased among
all ethnic groups.   The results will be published and a sumary
disseminated to all physicians in the state.   The legislature has
created a special subcommi ttee to study youth suicide, with the
goal of developing legislative proposals by January 1987.

NEW YORK   In 1984, the lieutenant governor established a special
task force to address youth suicide. After leaving office, he
created the National Committee on Youth Suicide Prevention (based
in New York City), which he currently chairs.

The Governor' s Youth Suicide Prevention Council, consisting of a
broad public and private representation, was charged with
outlining what is known about teen suicide, as well as making
specific recommendations for administrative, budgetary and
legislative steps designed to reduce the incidence of teen
suicide. An interim report was published in 1985, and a fin
report is expected in June 1986.  Recommendations from the
interim report include: (I) developing a compendium of program
models, critical evaluations and community strategies for
addressing youth suicide, (2) developing and maintaining a
clearinghouse of teen suicide prevention information,
(3) supporting research, (4) establishing a state policy
requiring an evaluation component in all new state- funded teen
suicide prevention programs, (5) holding regional and statewide
seminars for the media regarding their potential role in the
prevention of suicide, as well as encouraging the media to
develop voluntary guidelines for the reporting of teen suicides,
(6) developing recommendations regarding hospital emergency room
practices, and (7) developing recommendations regarding the
reporting practices of medical examiners.

In addi tion to having lead agency responsibility for the task
force, the mental health agency is developing a manual, which
will be available by Sumer 1986 and which describes various
approaches communi ties might take in developing suicide
prevention efforts. The agency, in conjunction wi th the health
department, has been charged with developing a protocol and
guidelines for hospi tal emergency rooms, which include linking up
youth with adequate follow-up services upon discharge from the
hospi tal. In addition, a pilot project has been funded to allow
community mental health centers to develop a curriculum on youth
suicide prevention, which can serve as a basis for training
people in their communities.
The state education agency has developed a manual on youth
suicide prevention, which has been distributed to every school in
the state. Schools have been instructed to incorporate into
their guidance programs, a protocol for dealing with high risk
youth, including those at risk of  suicide. The agency has
jointly funded several pilot projects, all of which have a school
component, but where services are delivered in a variety of
settings. Finally,   the agency has helped match up schools with
communi ty agencies who can help them address youth   suicide.
Maternal and child health staff have conducted two research
projects: (I)  profiling youth who have completed suicide and
(2) examining the impact of a television docudrama on hospital
emergency room admissions and calls to regional poison control
centers.  They have also worked with adolescent health providers
to develop a plan to reduce youth suicide.

The drug program sponsored training specific to youth suicide as
part of their school- based junior and senior high programs. The
alcohol program has identified youth suicide in its five- year
prevention plan and is developing a paper on the rei tionship of
alcohol use and y uth suicide.

The legislature is considering providing addi tional funds to

school districts who have developed a plan for identifying 

children at risk for a number of problems, including suicide

NORTH CAROLINA   The mental health agency has developed a
training curriculum on youth suicide for personnel wi thin the
juvenile justice and public school systems. The curriculum       has a
self- instructional component so that participants can train
others.  Training is also provided for mental health
professionals with an emphasis on emergency services and crisis
stabilization. The agency plans to initiate three public forums,
using a format developed by the American Association of
Suicidology. The state education agency has sponsored workshops
for school personnel and is developing a training package, which
will include a videotape, manual and workshop, on the subject of
children under stress. Suicide will be addressed. The package
will be structured so that counselors can use the materials to
train others.

NORTH DAKOTA   The governor has established a Commission on Youth
at Risk, which is staffed by the statewide mental health
association, a private organization.   The commission is studying
a range of problems, including youth at risk of suicide. A
report is anticipated by Sumer 1986.    The mental health
association has also developed a manual on youth suicide, which
is used in workshops, and has a special federal suicide
prevention demonstration grant from OHDS to set up networks at
the community level for runaway and homeless youth. The maternal
and child health program is participating in a five-state
research project on the epidemiology of suicide (e. g., looking at
the increased incidence of suicide in farm communi ties) . The
program also funds the printing of materials developed by the
mental health association on youth suicide.
OHIO    The maternal and child health program has identified
suicide in its five- year state plan as the second leading cause
of death among youth, aged 15-19, and has established a specific
objecti ve to reduce the suicide rate by 1990.  Maternal and child
heal th also has funded eleven demonstration projects, which are
designed to provide comprehensive adolescent health
                                                 in
                                                       care.
                                                    clinics,
                                                             Each
                                                              where
demonstration includes a youth hotline and walk-
youth are triaged and referred to appropriate service  agencies.
State education staff are available to make presentations, which
include youth suicide, to schools and at regional conferences.
Li terature and films on youth suicide are available. The drug
and alcohol program holds a sumer institute for student leaders
and school advisors. The primary emphasis is on prevention of

drug and alcohol abuse, but youth suicide is also addressed.

OKLAHOMA    In 1985, the legislature authorized funds for youth
emergency services, including suicide prevention and

 intervention.  Funds were used to: (I) hire youth crisis workers
and set up emergency services systems for children at community
mental heal th cen ers, (2) guarantee payment to local psychiatric
units for the hospitalization of youth, and (3) develop a pilot
mobile crisis intervention team in the state' s most populous

. county. The mental health agency is developing a screen to
profile youth at risk of suicide, schizophrenia and severe mental
disorders. The screen will be used throughout the state by
schools, day care centers, health clinics, and hospitals. It-
intended for use with children of all ages and places a strong
emphasis on family and environmental factors. A statewide and
three regional conferences are planned to train people to use the
 screen.  Workshops on teen suicide are available to school    staff,
parent groups, etc., through guidance centers staffed by county
heal th departments. Requests for training are made through the
state education agency, which has a cooperative agreement with
the health agencies.

 OREGON   In 1985, the state education agency conducted a study of
 youth suicide, which culminated in a series of reports to the
 state Board of Education. Subsequently, the superintendent and
 state board have encouraged schools to develop programs to

 address suicide. The agency has published a manual for

 distribution to schools and has conducted special workshops for

 counselors. The maternal and child health program has recently

 established four school-based health clinics. One focus of these
 clinics is the early identification of depression and other
 mental health problems, including assessing for risk of suicide.
 There are plans to expand this program to other school si tes.
 PENNSYLVANIA     The governor has requested funds from the
 legi slature to enable   the state mental health, drug and alcohol
 and education agencies to mount a collaborative youth suicide
 initiative which would   include: (I)   developing a curriculum on
 teen suicide for school personnel, (2) training of school

 personnel and (3) providing funds to community mental health being
 centers to evaluate and treat youth who are identif d -
 at risk of suicide. The proposal would build on an existing
 prog ram which identi f ies and intervenes with youth at risk of
 substance abuse. The legislature is actively considering the

 governor I s proposal and has approved a resolution to hold
hearings, develop a report and make recommendations that would

address this issue. A select commi ttee on teen suicide held

hearings throughout the state in Spring 1986.


The state education agency recently developed a pamphlet on teen
suicide, which should be available by Sumer 1986.
The publication will be distributed to all school districts for
use by teachers, counselors and administrators. The agency has
also sponsored workshops on children at risk, including risk of
suicide.  The school drug and alcohol program is broadening its
scope to encompass training on the relationship of substance
abuse to other problems, including teen suicide.

RHODE ISLAND    In 1985, the general assembly passed a joint
resolution, creating a Task Force on Teenage Suicide Prevention
to be chaired by   the lieutenant governor. The task force, which
has broad statewide representation, has established the following
goals: (I) compile a statewide data base on youth suicide,
(2) formulate policy and legislative recommendations for state

and local governments and (3) guide school systems in developing

 suicide prevention programs. A report is anticipated by "
June 1986. Future    acti vi ties include planning a conference     for
 guidance counselors and investing in the establishment of a model
 surveillance system. The task force has also introduced
 legislation to the general assembly which would (I) require
 incorporation of a suicide awareness program into the high school
 curriculum, (2) establish workshops for teachers and
 (3) distribute materials to schools, libraries and other public
 buildings.  This legislation is the product of a special pilot
 program which was developed by the Samaritans, a private suicide
 prevention agency, under a grant from the National Conference of
 state Legislatures and state maternal and child health funds.
 The pilot program is evaluating the effectiveness of a model
 suicide awareness program in four high schools and includes an
 orientation workshop for teachers, lesson plans for students and
 an evening session for parents.

  The mental health program is developing a comprehensive plan of
  which youth suicide is a component. The agency provides
  in-service training and is evaluating youth suicide materials to
  select appropriate ones for distribution to community mental
  health centers. The state education agency is completing a

. comprehensive health education curriculum guide, of which youth
  suicide is a component. There is a statewide policy to test all
  children in the third and sixth grades, including mental health
  questions. The testing will be expanded to grades eight, ten and
  twelve and will include risk of suicide.

 SOUTH CAROLINA     The mental health agency works wi th   heal 

 education centers, which provide training on a wide range of

 topics, including youth suicide.

 SOUTH DAKOTA.    No involvement.
TENNESSEE . The state education agency has incorporated suicide
into its new comprehensive health education curriculum. The
heal th department recently completed a study of suicides over the
past five years and found that the IS to 29 age range was the
only group which experienced an  increase.  The greatest increase
was among young adults, aged 20 to 24 (117%), followed by the 15
to 19 year old age group (56%).

TEXAS   As part of its , statewide conference for school
counselors, the state education agency has used schools with

model suicide prevention programs as trainers in workshops on

youth suicide. Virtually all counselors in the state have

participated in these workshops. Counselors have been given a
curriculum developed by the American Association of Suicidology.
The mental health agency is planning a state conference on teen
suicide, tentativ ly scheduled for Fall  1986.  Mental health
staff have participated in a special study, commissioned by the

HHS Youth Suicide Task Force, surveying communi ty efforts at

youth suicide prevention.


UTAH     The mental health and drug and alcohol programs recently
collaborated with a local hospital to sponsor a statewide
conference on youth suicide. The mental health program also
recently received a federal grant from the National Institute of
Mental Health to develop a network of school counselors,
communi ty mental health centers, other local service providers
and parents to identify youth at risk of   suicide.  The drug and
alcohol program is working with the state juvenile justice
program under a federal Juvenile Justice Demonstration Program
grant to better serve troubled youth, including those at risk of
suicide.    The state education agency is exploring the integration
of . suicide prevention into the state alcohol and drug curriculum
for grades one through twelve.
VERMO      The mental health agency has a clinician under contract
to do training, upon request, for schools, mental health clinics
and nonprofit agencies. The agency also held a workshop on youth
suicide for mental health center  staff.   In addition, under a
National Insti tute of Mental Health grant, youth suicide has been
identif ied as a priori ty child and adolescent service and funds
have been earmarked to address this  issue.   Both the children
services and drug and alcohol programs have sponsored workshops
or encouraged staff to attend training sessions on youth suicide.
VIRGINIA    The state education agency has identified youth
suicide prevention in its comprehensive heal th education
curriculum plan. The agency has also sponsored workshops for
school administrators and teachers and is updating a list of
youth suicide resource materials available to school personnel.
The mental health agency is co-sponsoring a workshop on
adolescent depression and suicide with the state Parent Teacher
Association. The maternal and child health program reports that
screening for depression is a priori ty at its child development
clinics and has resulted in the identification of youth at risk
of suicide.
WASHINGTON . The mental health agency is implementing an early
intervention project in ten school districts, which entails
teachers screening elementary sChool-aged children for risk of
mental health problems, including suicide. Most of the emphasis
is on children in kindergarten through third grade. This is a
collaborative effort between mental health centers and school
districts, and hopefully will defuse the stigma of mental health
referrals.  Teachers will identify and refer students with
problems to mental health centers. The children' s services
program funds a family reconciliation services program which
assists families wi th acting-out children resolve problems
through mediation and counseling. Risk of suicide is a frequent
issue.  Emphasis is on conflict resolution, understanding family
dynamics, and developing coping skills. The state education
agency sponsors an annual health education conference and is
including a session on youth suic de in this year' s agenda.

WEST VIRGINIA    The state education agency has conducted several
workshops on youth suicide, primarily for counselors and scbopl
nurses.   The children' s services program sponsored a workshop. for
group shelter staff and has paid for local caseworkers to attend
seminars. The State Health Education Council and the health
department co-sponsored a conference on prevention for public
heal th personnel in Spring 1986, and youth suicide was included
on the agenda.

WISCONSIN   In 1985, the legislature mandated that the education
agency and health and social services agency collaborate in
developing a youth suicide prevention program. Major components
include: (I)  creating an advisory council with representation
from these two agencies plus the Wisconsin Council on Criminal
Justice, to assist in the development of a state plan,
(2) creating a referral system that is clearly defined and

understood by all school and community agency staff and

(3) establishing communi ty-based suicide awareness programs and a
statewide school curriculum by the 1989-90 school year. The two
designated state agencies are to provide technical assistance to
school districts as they establish these programs and train
school personnel and other community service providers. The
state s 12 cooperative educational service agencies were provided
with limited funds to assist in this effort. . The intent of the
legislation is to involve mental health and crisis intervention
centers, other community agencies, health providers and parents
in a cooperative effort with the schools.

First year emphasis of this ini tiati ve has been on communi
awareness. Trainers and   special technical assistance teams from
both the education and mental health programs have conducted

workshops and special presentations for over 2, 000 school and

communi ty agencies. A manual suggesting guidelines on how to

plan fQr and implement a communi ty- based, school-focused suicide
prevention program was developed and will be distributed to    all
school districts, county welfare agencies, drug and alcohol

programs and community mental health centers in the   state.  The
manual focuses on conducting a communi ty needs assessment,

developing a network of community services and a clearly defined

referral system, an action plan to follow if a suicide emergency
occurs, and the importance of a community based approach. It is
anticipated that all 432 school districts will have a suicide
awareness program in place by Spring 1987 and that all will have

a formal classroom curriculum (probably incorporated into the
ninth grade health education curriculum) by July 1988.

The thrust of the Wisconsin approach is that (I) schools cannot
address youth suicide alone--that programs need to be communi ty­
based and built on existing resources, (2) suicide is one more

youth issue, not to be viewed in isolation from other serious

problems affecting youth and (3) rather than reinvent the

wheel, " communi ties should build on existing models, adapting
programs to their - own needs and the existing service systems.

WYOMING   The state education agency is urging local school
districts to adopt policies and procedures for identifying,
preventing and addressing youth suicide. The agency serves as an
information exchange among districts. The agency has also
sponsored a workshop on teen suicide at a conference for school
administrators and board members and anticipates hiring a staff
person who will specialize on issues relating to high risk youth,
including suicide. The drug and alcohol program participated in

a special multi-agency, interdisciplinary crisis team that

addressed the problem of a cluster of youth suicides on an Indian

reservation. The children s services program reports that one of

their county child protective teams held a workshop on youth

suicide.
                                      TABLE I

                    STATE PROGRAM INVOLVEMENT IN YOUTH SUICIDE

                                (As of April 1986)



                                                MATERNAL

        CHILDREN I S    HENT AL   DRUG 6:       6: CHILD

                                                 HEAL TH    EDCATION   INVOLVEMENT
         SERVICES       HEAL TH   ALCOHOL
STATE
                      STATE PROGRAM INVOLVEMENT IN YOUTH SUICIDE

                                  (As of April 1986)



                                              MATERNAL
          CHILDREN'      MENTAL    DRUG &:    &: CHILD
  STATE    SERVICES      HEAL TH   ALCOHOL     HEAL TH    EDCATION   INVOl VEMENT




Totals




                                                                          R-_
                                                                                                           " ,





                                                                                      T ABLE

                                                                        STATE INVOLVEMENT IN YOUTH SUICIDE

                                                                                (As of April 1986)



                                                                          MANUALS,                                PRIORITY    DIRECT :JvCS.
         NUMJER                     GOV   /L   T . GOV.   TASK FORCE     BROCIURES,     SCHOOL      TRAINING,     POLICY OR     (GRANTS,      SPECIAL
STATE   INTERVIEWED   LEGISLATION   INVOLVEMENT           ADVIS. GRP.      VIDEOS     CURRICULUM   CONFERENCES      PLAN      PILOTS. TA)     STUDIES   OTHER   INVOLVEMENT




                                                                                                        l. 

                                                                                                 . "                  ,..





                                                                 STATE INVOLVEMENT IN YOUTH SUICIDE

                                                                         (As of April 1986)



                                                   COHMI SSION     MANUALS,                               PRIORITY,   DIRECT SVCS.
         MUliER                     GOV   /LY
                                            GOV.   T ASK fORCE    BROCIIRES,     SCHOOL      TRAINING,    POLICY OR     (GRANTS,     SPECIAL
STATE   INTERVIEWED   LEGISlATION   INVOLVEMENT    ADVIS. GRP.      VIDEOS     CURRICULUM   CONfERENCES     PLAN      PILOTS. TA)    STUDIES   OTHER   INVOLVEMENT



                                                                                                                             . X

                                                                 STATE INVOLVEMENT IN YOUTH SUICIDE

                                                                         (AB of April 1986)



                                                       CO""I SSION    MANUALS,                               PRIORITY,   DIRECT SVCS.
                                    Gov. IL T . GOV.   TASK rORCE    BROCI-RES,     SCHOOL      TRAINING,    POlICY OR     (GRANTS,     SPECIAl
         MJteER                                                                                                                                   OTHER   INVOLVEMENT
                                    INVOLVEMENT        ADVIS. GRP.     VIDEOS     CURRICULUM   CONfERENCES     PLAN      PILOTS. TA)    STUDIES
STATE   INTERVIEWED   LEGISLATION




                                                                                                    X.




 ote1       28'




                                                                                                    i.
